<html>
<title> - THE ROLE OF SECURITY IN THE STATE DEPARTMENT PROMOTION PROCESS</title>
<body><pre>[Senate Hearing 106-822]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-822

     THE ROLE OF SECURITY IN THE STATE DEPARTMENT PROMOTION PROCESS

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 22, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
68-119 CC                   WASHINGTON : 2000




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                     ROD GRAMS, Minnesota, Chairman
JESSE HELMS, North Carolina          BARBARA BOXER, California
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Adair, Marshall P., president, American Foreign Service 
  Association, Washington, DC....................................    25
    Prepared statement...........................................    26
Carpenter, Hon. David G., Assistant Secretary of State for 
  Diplomatic Security, Department of State, Washington, DC.......     7
    Prepared statement...........................................    10
Finley, Ms. Fern O., president, Local #1534; accompanied by: Gary 
  Galloway, vice president, Local #1534, American Federation of 
  Government Employees, Washington, DC...........................    24
Grossman, Hon. Marc, Director General of the Foreign Service, 
  Department of State, Washington, DC............................     2
    Prepared statement...........................................     5

                                 (iii)

  

 
     THE ROLE OF SECURITY IN THE STATE DEPARTMENT PROMOTION PROCESS

                              ----------                              


                        THURSDAY, JUNE 22, 2000

                               U.S. Senate,
          Subcommittee on International Operations,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:19 p.m., in 
room SD-419, Dirksen Senate Office Building, the Hon. Rod Grams 
(chairman of the subcommittee) presiding.
    Present: Senator Grams.
    Senator Grams. Good afternoon. I would like to bring this 
hearing to order.
    I am sorry we are a little bit late. We just had a quick 
vote that we had to take. I appreciate your being here today.
    I want to thank the witnesses for attending this hearing to 
address, I think, a very grave problem that I did not know 
existed until recently, and I think the failure to consider 
security awareness as a factor in promotions at the State 
Department.
    At a recent State Department Town Hall meeting on security, 
it was Secretary of State Madeleine Albright, who stated, ``I 
do not care how skilled you are as a diplomat, how brilliant 
you may be at meetings or how creative you are as an 
administrator, if you are not a professional about security, 
you are a failure.''
    But that has not been the case. I was shocked to find that 
seven nominees for ambassador posts to foreign countries 
pending before this committee have double-digit security 
violations. The seven nominees have amassed over 100 
violations. One nominee accumulated an astounding 20 or 22 
security violations, depending on who is doing the counting, 
during a single overseas tour in a senior mission position 
resulting in a 16-day suspension and a 10-day suspension.
    Now, frankly, I am very concerned that an officer with such 
a dismal security record could nonetheless continue being 
promoted into the senior ranks of the Foreign Service and 
aspire to an ambassadorial appointment.
    Apart from the threat to our national security posed by 
this officer, the message sent by this situation to junior 
officers and others who live by the rules is that security does 
not matter. The current promotion system clearly does not place 
a premium on security.
    Neither the Foreign Service employee evaluation form nor 
promotion board precepts introduces security performance as a 
ratable criteria. And as a result, State Department personnel 
are judged on the basis of their cultural sensitivity, but not 
on security. This is completely inconsistent with the serious 
security management problem and a serious management problem, 
not to mention again Secretary Albright's recent statements on 
the subject, and it must be changed.
    I was surprised to learn that, at present, security 
violations do not travel with an individual from assignment to 
assignment. If someone has three infractions in Moscow and 
transfers to Beijing, those violations vanish. In addition, 
personnel records and diplomatic security records of 
infractions and violations are not reconciled with one another.
    It is no wonder that a culture has developed at State that 
dismisses security concerns; and up until this point, repeat 
security violations have not inhibited individual's promotion 
prospects.
    Absent concrete change, I will remain unconvinced that 
meaningful attention is being given to what is reasonably seen 
by this committee as a serious threat to the integrity of the 
nomination process, not to mention our national security.
    So, again, I want to thank our witnesses for being here. 
And I would just like to name those who will be testifying 
today. We have the Honorable Marc Grossman, who is Director 
General of the Foreign Service, U.S. Department of State; the 
Honorable David Carpenter, Assistant Secretary of State for 
Diplomatic Security.
    On our second panel is Mr. Marshall Adair, who is president 
of the American Foreign Service Association here in Washington, 
DC; and also Ms. Fern Finley, president of Local 1534, the 
American Federation of Government Employees, Washington, DC.
    And I want to thank our panelists for being here, and I 
would like to now turn to Mr. Grossman for your opening 
statement. Thank you.

   STATEMENT OF HON. MARC GROSSMAN, DIRECTOR GENERAL OF THE 
   FOREIGN SERVICE, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Grossman. Thank you very much. Mr. Chairman, I 
thank you very much for the opportunity to appear before you 
today--both of us, Assistant Secretary Carpenter and I--to 
discuss the State Department's commitment to safeguarding our 
Nation's security.
    I want to especially thank you, Mr. Chairman, for your 
interest in this issue, both at my confirmation hearing and in 
the meeting we had in your office last week. Your commitment to 
this has had a very important impact on the Department. And as 
I promised you in my confirmation hearing, you will find me 
ready to do what we must to protect our Nation's secrets.
    I also, if I could, I think on behalf of both of us, thank 
you very much for your letter of June 19. You have offered us a 
number of important suggestions, which Dave Carpenter and I 
hope to address today.
    Mr. Chairman, in your statement you refer to Secretary 
Albright's May 3 Town Hall meeting, and if you would not mind, 
before I report to you on where we stand today, I think it is 
worth highlighting three points that she made that day.
    First, it must be true that security is an indispensable 
component of everybody's job at the State Department. Second, 
as you point out in your statement, it is also worth repeating 
her view, and I quote here, that ``The vast majority of State 
Department employees do take their security duties very 
seriously. It is the few who neglect or who are casual about 
their duties that create problems for all of us.'' And third, 
clearly, absolutely, we need to do more.
    The Secretary has stressed to all employees, and certainly 
to Assistant Secretary Carpenter and to me, that the proper 
safeguarding of classified material is a serious and 
fundamental responsibility of each and every Department 
employee, especially those that have reached leadership 
positions.
    Mr. Chairman, I took the oath of office on Monday morning, 
and I must say that the very first directive that I got was 
from the Secretary instructing me, as she promised you, to 
weigh security factors in all personnel decisions, including 
nominations and promotions.
    And if I could first talk about the ambassadorial nominees, 
since I know that that has been a particular source of concern 
to the Secretary, to you, sir, and to the committee. And 
although we agreed, I think, that it would not be right for 
Assistant Secretary Carpenter or for me or for any of us, 
really, to talk about specific nominees, I want to say that we 
do take your concerns very, very seriously.
    And I talked this morning to Deputy Secretary Talbott who 
chairs the Committee of Department Principals who select 
nominees for senior management positions, and he gave me, this 
morning, his guidance on this subject.
    He has instructed that the committee that he chairs will 
review every candidate's security performance as it makes 
future decisions on nominees, whether for leadership positions 
in the Department or ambassadorial posts overseas. He told me 
that the committee will intensify its examination of 
candidates' personal security performance and their commitment, 
and--this is very important to me--to instilling a 
comprehensive, heightened sense of security awareness in their 
missions or in their offices.
    My responsibility in this, so that the Deputy Secretary's 
committee can accomplish this task, that we will ensure that in 
all cases, first, information concerning security incidents, 
not just violations, but infractions as well, and any resulting 
adverse actions will be provided to the Deputy Secretary's 
committee prior to its deliberations.
    Two, security incidents will be covered in the full field 
security investigation conducted on each candidate for 
Presidential appointment.
    Three, the review will include the extent to which any such 
incidents involve possible compromise of national security 
information.
    Four, we will also recommend to the Deputy Secretary that a 
representative from the Bureau of Diplomatic Security support 
the committee's deliberations, providing the needed information 
and perspective on all security issues related to our nominees.
    And, Mr. Chairman, to eliminate any doubt as to what 
information should be submitted, subject of course to the 
considerations of the Privacy Act, to the Committee on Foreign 
Relations concerning security incidents, the Department will 
seek to work with the Foreign Relations Committee to amend the 
committee questionnaire to cover this kind of information.
    If you would allow me, I would now like to discuss the 
challenges facing the Department as a whole in this area. Move 
away from just nominees, but the Department as a whole.
    Assistant Secretary Carpenter and I intend by June 29, a 
week from today, to recommend a specific plan of action to 
strengthen the handling of security incidents in controlled 
access areas. And I would like to give you, sir, six examples 
of what we have in mind.
    First, all security incidents should be reported 
immediately to the Department from the field, and that that 
record will travel with the employee from assignment to 
assignment, something that you referred to in your statement, 
sir.
    Second, we should cut in half the number of infractions 
that triggers a letter of warning from four to two.
    Third, we should then lower the threshold that triggers 
actual disciplinary processes for infractions from five to 
three.
    Fourth, we should increase sanctions and penalties for 
security incidents.
    Fifth, we should find a way to keep employees, worldwide, 
informed on a regular basis of discipline imposed for security 
incidents--of course, protecting the privacy of disciplined 
employees--and also find a way to reward managers who maintain 
a high level of security awareness at their missions or in 
their bureaus. So, we should also highlight those bureaus that 
have exemplary records, that have low numbers of security 
violations or incidents.
    And sixth, every bureau in Washington and every mission 
overseas should include in its bureau and mission program plan 
specific steps for increasing security awareness and 
accountability.
    And, Senator, as you and I have discussed, I also think 
that training is absolutely key to increasing this ability to 
have security awareness, and we have already begun mandatory 
refresher courses on security for all State Department 
personnel; and Assistant Secretary Carpenter, in his statement, 
will tell you a little bit more about that.
    We are also placing great emphasis on security issues in 
junior officer orientation, on the first day of Civil Service 
training, and in training for ambassadors and deputy chiefs of 
mission.
    And I have also asked the Foreign Service Institute to 
currently survey the security training other foreign affairs 
agencies provide their employees before sending them overseas, 
so that the Foreign Service Institute can make information 
available to other agencies on security training that is 
available through the State Department.
    I have to say, and I think you would expect me to do so, 
that obviously this kind of training will cost money. It is 
people intensive. And one of our problems is we cannot today 
afford, you know, choosing between getting today's job done and 
training for the future.
    Now, one of things I hope you will hear me say, not only on 
this subject, but on others as well, is I think an optimal work 
force for the Department would take into account this training 
flow, 10 or 15 percent of the people who are in training or on 
travel at any given time. It will be analogous to what our 
military forces do to maintain their readiness, and that is 
something I hope, Senator, over time we might be able to enlist 
your support in.
    We, of course, want to support the President's fiscal year 
2001 budget request for the Department, because it includes $3 
million to support OPAP-related leadership and management 
training initiatives.
    As we discussed in your office last week, Mr. Chairman, 
some of the initiatives will require negotiation with our 
Foreign and Civil Service unions. I know that we can count on 
their support for efforts to enhance security in the 
Department, and I pay particular praise to you, sir, for having 
them participate in this hearing today.
    And I plan to meet right away with our colleagues to brief 
them on our plans and to seek the backing for our initiatives.
    Some of the steps, as we discussed last Wednesday, that 
would require consultations include: First, we want to make 
security awareness a key part of the promotion system by 
including what I would call security awareness and 
accountability in all employee's work requirement statements.
    Second, I would like to see security awareness and 
accountability in all promotion precepts. Third, we want to put 
in place a clear connection between incidents and consequences. 
We would also like to reexamine how security incidents are 
documented in an employee's performance file and how long these 
records will remain available to promotion boards.
    To finish, Senator, I want to thank you again for the 
attention you have brought to this vital aspect of our work. 
You can count on Assistant Secretary Carpenter and I to work as 
a team to support the Secretary's effort to create a strong 
pro-security culture at the State Department.
    And I say for myself, and I know for Assistant Secretary 
Carpenter as well, we look very much forward to reviewing our 
progress with you and other members of the committee in the 
coming months.
    Thank you very much.
    Senator Grams. Thank you very much, Mr. Grossman.
    [The prepared statement of Ambassador Grossman follows:]

                Prepared Statement of Hon. Marc Grossman

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to appear before you today to discuss the State 
Department's commitment to safeguarding our nation's secrets.
    Mr. Chairman, I especially thank you for your interest in this 
issue. Your commitment has had an important impact in the Department. 
As I promised in my confirmation hearing, you will find me ready to do 
what we must to protect our secrets.
    Thank you also for your letter of June 19. You have offered a 
number of important suggestions which Asst. Secretary Carpenter and I 
hope to address today.
    Mr. Chairman, you and I have discussed the message of Secretary 
Albright's May 3 Town Hall meeting.
    Before I report to you on where we stand today, I'd like to 
highlight three points she made that day:

--First, it must be true that security is an indispensable component of 
        everyone's job at the State Department.

--Second, it is worth repeating her view that, ``The vast majority of 
        State Department employees already take their security duties 
        very seriously. . . . It is the few who neglect or who are 
        casual about their duties, that create problems for all of 
        us.''

--Third, we clearly need to do more. The Secretary has stressed that 
        the proper safeguarding of classified material is a serious and 
        fundamental responsibility of each and every Department 
        employee, especially those who have reached leadership 
        positions.

    I took my oath of office on Monday.
    My first directive was from the Secretary, instructing me to weigh 
security factors in all personnel decisions, including nominations and 
promotions.
    I believe that there should be simple, clear rules regarding the 
handling of classified material and there should be consequences that 
are easily understood for violating those rules.
    Let me first talk about ambassadorial nominees, since they have 
been a source of concern to the Secretary, to the committee, and to the 
Senate. Although it would not be right for me to comment on any 
specific nominee, we take your and the committee's concerns seriously. 
Deputy Secretary Talbott has given me his guidance on this issue. He 
chairs the committee of Department principals, which selects nominees 
for senior management positions.
    He has instructed that the committee will give even greater 
emphasis to reviewing every candidate's security performance as it 
makes future decisions on nominees, whether for leadership positions in 
the Department or Ambassadorial posts overseas. The committee will 
intensify its examination of candidates' personal security performance 
and their commitment to instilling a comprehensive, heightened sense of 
security awareness in their missions or offices.
    So that the Deputy Secretary's committee can accomplish this task, 
we will ensure that, in all cases:

  <bullet> Information concerning security incidents--not just 
        violations, but infractions as well--and any resulting adverse 
        actions will be provided to the Deputy Secretary's Committee 
        prior to its deliberations.

  <bullet> Security incidents will be covered in the full field 
        security investigation conducted on each candidate for 
        Presidential appointment.

  <bullet> The review will include the extent to which such incidents 
        involve possible compromise of national security information.

  <bullet> We will also recommend to the Deputy Secretary that a 
        representative from the Bureau of Diplomatic Security support 
        the D committee's deliberations, providing the needed 
        information and perspective on all security issues related to 
        our nominees.

    And to eliminate any doubt as to what information should be 
submitted (subject to privacy act concerns) to the Committee on Foreign 
Relations concerning security incidents, the Department will seek SFRC 
agreement to amend the Committee Questionnaire to cover this 
information.
    Let me now discuss the challenges facing the Department as a whole 
in this area.
    Assistant Secretary Carpenter and I intend by June 29, to recommend 
a specific plan of action to strengthen the handling of security 
incidents in controlled access areas. Let me give you some examples of 
what we have in mind:

  <bullet> All security incidents should be reported immediately to the 
        Department from the field and that record will ``travel'' with 
        the employee from assignment to assignment.

  <bullet> We should cut in half the number of infractions that 
        triggers a letter of warning from four to two.

  <bullet> We should lower the threshold that triggers the disciplinary 
        process for infractions from 5 to 3.

  <bullet> We should increase sanctions/penalties for security 
        incidents.

  <bullet> We should keep employees worldwide informed on a regular 
        basis of discipline imposed for security incidents, protecting 
        the privacy of the disciplined employees and to reward senior 
        managers who maintain a high level of security awareness at 
        their mission or in their bureau, we should also routinely 
        publicize those bureaus and posts with few or no security 
        violations.

  <bullet> Each Bureau in Washington and each Mission overseas will 
        include in its Bureau and Mission Program Plans, specific steps 
        for increasing security awareness and accountability.

    As we have discussed, training and retraining is also key to 
increasing security awareness. We have already begun mandatory 
refresher courses on security for all State personnel.
    We are placing great emphasis on security issues in the junior 
officer orientation course and in training for Ambassadors and Deputy 
Chiefs of Mission.
    The Foreign Service Institute is currently surveying the security 
training other foreign affairs agencies provide their employees before 
sending them to overseas assignments.
    The Foreign Service Institute will be making information available 
to other agencies on security training available at PSI.
    I have to say here that training costs money. It is people-
intensive. We can not afford to choose between getting today's job done 
and training for the future.
    I believe that an optimal workforce structure for the Department 
takes into account the 10 to 15 percent of employees who will be in 
training or travel status at any given time.
    This is analogous to the military that must maintain a level of 
troop strength to ensure readiness. We cannot do what must be done, 
without your support.
    Of utmost importance is support by the Congress for the President's 
FY 2001 budget request for the Department including $3 million to 
support OPAP-related leadership and management training initiatives. I 
see this as a down payment if we are also to focus seriously on 
security training.
    As we discussed in your office last week, some of our initiatives 
will require negotiation with our Foreign and Civil Service unions. I 
know we can count on their support for efforts to enhance security at 
the Department. I plan to meet right away with the Foreign and Civil 
Service unions to brief them on our plans and seek their backing for 
our initiatives.
    Some of the steps that will require consultations include:

  <bullet> We will want to make security awareness a key part of the 
        promotion system by including ``security awareness and 
        accountability'' in all employees' work requirements 
        statements.

  <bullet> We will include ``security awareness and accountability'' in 
        promotion precepts.

  <bullet> We intend to put in place a clear connection between 
        incidents and consequences.

  <bullet> We will reexamine how security incidents are documented in 
        an employee's performance file and how long these records will 
        remain available to promotion boards.

    Senator, I want to thank you for the attention you have brought to 
this vital aspect of our work. I am fully committed to supporting the 
highest standards of security awareness and practices in the 
Department. Assistant Secretary Carpenter and I will work as a team to 
support the Secretary to create a strong pro-security culture in the 
Department. I look forward to reviewing our progress with you in the 
coming months.

    Senator Grams. Mr. Carpenter.

 STATEMENT OF HON. DAVID G. CARPENTER, ASSISTANT SECRETARY OF 
STATE FOR DIPLOMATIC SECURITY, DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Mr. Carpenter. Thank you, Mr. Chairman.
    Mr. Chairman, it is a pleasure for me to be here before you 
today. You have been among the strongest advocates in 
Washington for strengthening security at the State Department, 
and I appreciate your support. It is also with a sense of pride 
that I report that our combined efforts over the last several 
months have achieved a great deal, and the Department, its 
people, and its information are now considerably more secure.
    For proof that our security posture is improving, you need 
look no further than to what my colleague, Marc Grossman, the 
new Director General of the Department of State, has just said. 
It is clear that he fully supports our efforts and will work 
closely with us to raise security consciousness throughout the 
Department and help solidify the gains we have made.
    This relationship with the Director General is particularly 
important because while the Bureau of Diplomatic Security 
investigates security lapses, it is the Director General who 
administers the disciplinary action.
    Because it is the Director General who has the authority to 
discipline employees for security lapses, the tough-minded 
position the new Director General has just articulated with 
regard to security is sure to resonate throughout the 
Department.
    Let me also mention a few of the other measures we have 
taken recently to improve security domestically. We have 
tightened security in the Secretary's suite of offices. For the 
first time in the history of the Department, we have adopted a 
rigorous, comprehensive escort policy. We have worked to 
strengthen computer safeguards. We have assigned uniformed 
officers to floor-specific patrols inside the building.
    At main State, we have reinstated an after-hours inspection 
program of Department offices. And we continue a program to 
bring U.S. Marine security guards in training into the 
Department ten times a year to conduct security sweeps. We have 
closed D Street outside the building to traffic and installed 
cement barriers around the entire building, thus lessening our 
physical vulnerabilities.
    We have provided security awareness briefings to over 4,000 
Department personnel. At the Secretary's direction, we plan to 
complete briefings of all cleared Department personnel in the 
United States by the end of July. Similar briefings are 
occurring overseas as well.
    The State Department has had an aggressive inspection 
program in place for many years to uncover classified and 
sensitive information that was not properly safeguarded.
    Using Marine security guards overseas and cleared guards 
domestically, daily inspections of our office areas are 
conducted and notices of security violations or infractions are 
issued. The Department's security violations program may be one 
of the most comprehensive and functional programs of its kind 
in the U.S. Government. It recognizes that the public nature of 
our facilities requires diligent and thorough security reviews.
    In March, I convened an interagency review panel comprised 
of senior security representatives from the FBI, the Department 
of Defense, the U.S. Secret Service, the CIA, and my own Bureau 
of Diplomatic Security.
    The panel was asked to review the countermeasures currently 
in place to protect against unauthorized access to the main 
State Department building and its classified information. I 
also requested that they make recommendations for improving 
security at the main State building.
    I have presented the report to the Secretary and intend to 
use it to correct systematic vulnerabilities at main State. 
Once the administration has had an opportunity to review the 
report in full, I will be delighted to share it with you, Mr. 
Chairman, as well as the committee.
    The panel also confirmed our assessment of known weaknesses 
in our programs and recommended additional short- and long-term 
solutions that it believes will enhance security at main State.
    I am convinced that the development of a strategic plan to 
fund and implement these findings, together with establishment 
of a new position of Under Secretary of State for Security, Law 
Enforcement and Counterterrorism, a recognition goal toward 
which the Secretary is currently working, will result in 
significant improvement in security at the Department.
    Turning now to personnel security issues, Mr. Chairman. I 
wholeheartedly endorse what the Director General has just said. 
He has made it clear that he will strive to hold employees 
accountable for their actions at the Department.
    However, I think it is important to note that a great many, 
perhaps even the majority of Department employees, have always 
been careful about security. And I would also like to dispel 
some of the concern that has been shown about security lapses 
on the part of some of our recent nominees.
    Mr. Chairman, not all security lapses are the same, and the 
Department rules beginning in 1995 recognize that fact. The 
rules, since 1995, distinguish between two types of security 
incidents, infractions and violations. A security infraction 
occurs when materials are not properly safeguarded, but there 
is no actual or probable compromise of these materials.
    An example would be a classified document left in a desk 
drawer of a locked office within a building under 24-hour 
guard.
    A security violation occurs, in the judgment of the 
investigating entity, when failure to safeguard classified 
materials could result in the actual or probable compromise of 
that material. An example would be removing classified 
materials from one's office building and inadvertently leaving 
it in a restaurant or other unsecured facility, thus subjecting 
it to compromise.
    As I previously mentioned, prior to 1995, the Department's 
procedures did not distinguish between the two kinds of lapses. 
Unfortunately, there are many today who are unaware of the 
distinction and, thus, when they hear that an employee has been 
guilty of a security infraction, mistakenly believe that to 
mean that classified information has been compromised or that 
some other harm has befallen the U.S. Government.
    Security infractions and security violations are different 
offenses and require different corrective procedures. A single 
security violation could result in an employee being fired, 
while infractions may result in a letter of reprimand, or days 
without pay if infractions become repetitive.
    By documenting a security infraction, we hope to nip sloppy 
security practices in the bud. Once that is done, and the 
employee is found to have tightened up his or her practices, we 
have been successful, and nothing more needs to be done.
    Mr. Chairman, I would like to conclude on a positive note. 
I believe that the State Department is dedicated to improving 
its responsibilities in all areas of security. This will take 
time, and a number of security infractions and violations will 
undoubtedly continue to occur.
    However, I have already personally witnessed increased 
attention and awareness as a result of our recent efforts. The 
Director General has spoken of his commitment to use 
punishment, as swift and decisive as possible, for security 
violations.
    Diplomatic Security agents charged with the responsibility 
to investigate these security infractions and violations feel 
they have the Department's full support in carrying out their 
responsibilities.
    And last and certainly most important, top management 
officials at the Department, starting with the Secretary, are 
fully engaged and giving their complete support to our efforts 
to protect our classified information. With this effort in 
place and this committee's continued support, we cannot help 
but be successful.
    That concludes my statement, Mr. Chairman.
    Senator Grams. Thank you very much, Mr. Carpenter.
    [The prepared statement of Mr. Carpenter follows:]

             Prepared Statement of Hon. David G. Carpenter

    Mr. Chairman and Members of the Subcommittee, it is a pleasure for 
me to appear before you today. You have been among the strongest 
advocates in Washington. for strengthening security at the State 
Department, and I appreciate your support. It is also with a sense of 
pride that I report that our combined efforts over the last several 
months have achieved a great deal, and the Department, its people, and 
its information are now considerably more secure.
    For proof that our security posture is improving, you need look no 
further than to what my colleague, Marc Grossman, the new Director 
General of the Department of State, has just said. It is clear that he 
fully supports our efforts and will work closely with us to raise 
security consciousness throughout the Department and help solidify the 
gains we have made. This relationship with the DG is particularly 
important because while the Bureau of Diplomatic Security investigates 
security lapses, it is the Director General who administers the 
disciplinary action. Because it is the DG who has the authority to 
discipline employees for security lapses, the tough minded position the 
new DG has just articulated with regard to security is sure to resonate 
throughout the Department.
    Let me also mention a few of the other measures we have taken 
recently to improve security domestically. We have tightened security 
in the Secretary's suite of offices; for the first time in the history 
of the Department, we have adopted a rigorous, comprehensive escort 
policy; we have worked to strengthen computer safeguards; and we have 
assigned uniformed officers to floor-specific patrols inside the 
building. At Main State, we have reinstated an after-hours inspection 
program of department offices. And we continue a program of bringing 
Marine security guards in training into the Department 10 times a year 
to conduct security sweeps. We have closed D Street outside the 
building to traffic and installed cement barriers around the entire 
building, thus lessening our physical vulnerability. We have provided 
security awareness briefings to over 4,000 Department personnel. At the 
Secretary's direction, we plan to complete briefings of all cleared 
Department personnel in the U.S. by the end of July. Similar briefings 
are occurring overseas as well.
    The State Department has had an aggressive inspection program in 
place for many years to uncover classified and sensitive information 
that was not properly safeguarded. Using Marine security guards 
overseas and cleared guards domestically, daily inspections of the 
office areas are conducted and notices of security violations or 
infractions are issued. The Department's security violations program 
may be one of the most comprehensive and functional programs of it kind 
in the government. It recognizes that the public nature of our 
facilities requires diligent and thorough security reviews.
    In March, I convened an interagency review panel comprised of 
senior security representatives from the FBI, the Department of 
Defense, the U.S. Secret Service, the CIA, and the Diplomatic Security 
Service. The panel was asked to review the countermeasures currently in 
place to protect against unauthorized access to the Main State 
Department Building and classified information. I also requested that 
they make recommendations for improving security at the Main State 
Building. I have presented the report to the Secretary and intend to 
use it to correct systemic vulnerabilities at Main State. Once the 
Administration has had an opportunity to review the report in full, I 
will be delighted to share it with you, Mr. Chairman, and with the 
Committee.
    The panel also confirmed our assessment of known weaknesses in our 
programs and recommended additional short- and long-term solutions that 
it believes will enhance security at Main State. I am convinced that 
the development of a strategic plan to fund and implement these 
findings, together with establishment of a new position of Under 
Secretary of State for Security, Law Enforcement and Counterterrorism, 
a reorganization goal toward which the Secretary is currently working, 
will result in significant improvement in security at the Department.
    Turning now to personnel security issues, Mr. Chairman, I 
wholeheartedly endorse what the Director General has said. He has made 
it clear that he will strive to hold employees accountable for their 
actions at the Department. However, I think it is important to note 
that a great many, perhaps even the majority of Department employees, 
have always been careful about security. And I would also like to 
dispel some of the concern that has been shown about security lapses on 
the part of some of our recent nominees.
    Mr. Chairman, not all security lapses are the same, and the 
Department rules beginning in 1995 recognize that fact. The rules since 
1995 distinguish between two types of security incidents, infractions 
and violations. A security infraction occurs when materials are not 
properly safeguarded, but there is no actual or probable compromise of 
the materials. (An example would be a classified document left in a 
desk drawer of a locked office within a building under 24 hour guard.) 
A security violation occurs when, in the judgment of the investigating 
entity, failure to safeguard classified materials could result in the 
actual or probable compromise of that material. (An example would be 
removing classified materials from one's office building and 
inadvertently leaving it at a restaurant or other unsecured facility, 
thus subjecting it to compromise.)
    As I previously mentioned, prior to 1995, the Department's 
procedures did not distinguish between the two kinds of lapses. 
Unfortunately, there are many today who are unaware of the distinction 
and, thus, when they hear that an employee has been guilty of a 
security infraction mistakenly believe that to mean that classified 
information has been compromised or that some other harm has befallen 
the government.
    Security infractions and security violations are different offenses 
and require different corrective procedures. A single security 
violation could result in an employee's being fired, while infractions 
may result in a letter of reprimand, or days without pay if infractions 
become repeitive. By documenting a security infraction we hope to nip 
sloppy security practices in the bud. Once that is done, if the 
employee has tightened up his or her practices, we have been successful 
and nothing more needs to be done.
    Mr. Chairman, I would like to conclude on a positive note. I 
believe that the State Department is dedicated to improving its 
responsibilities in all areas of security. This will take time and a 
number of security infractions and violations will undoubtedly continue 
to occur. However, I have already personally witnessed increased 
attention and awareness as a result of our recent efforts. The Director 
General has spoken of his commitment to using punishment as swift and 
decisive as possible for security violations. Diplomatic Security 
agents charged with the responsibility to investigate these security 
infractions and violations feel they have the Department's full support 
in carrying out their responsibilities. And last and certainly most 
importantly, top management officials at the Department, starting with 
the Secretary, are fully engaged and giving their complete support to 
our efforts to protect our classified information. With this effort in 
place and this Committee's continued support, we can not help but be 
successful.
    That concludes my testimony, Mr. Chairman. I would be happy to 
answer any questions you or the Committee may have.

    Senator Grams. I want to thank both of you for your 
statements and outlining some of the priorities and recognition 
of some of the concerns that we have, so I really appreciate 
it.
    I might just kind of bounce back and forth here with some 
questions that I have, not to ignore one or leave one out, but 
Ambassador Grossman, to begin with you: As the new Director 
General of the Foreign Service, I would say that you have 
inherited quite a mess right off the bat, to start at our 
embassies overseas.
    Would you agree that the buck stops with our ambassadors, 
and that is insofar as the protection of classified material, 
equipment that is intended for use with classified information 
and also mission security in general--would you say the buck 
stops then with the ambassadors in these regards?
    Ambassador Grossman. Senator, I would say actually it is 
the chief of mission's responsibility not only to be 
responsible for security, but for absolutely every piece of the 
operation at his or her mission. That is what the letter from 
the President says, and anyone who reads it has got to take it 
seriously.
    Senator Grams. So, following up on that, in light of that 
important responsibility, should a career officer who 
accumulates 20 security infractions and violations during a 
relatively short assignment now be considered for the privilege 
of an ambassadorial nomination?
    Ambassador Grossman. Well, again, Senator, I think you and 
I have agreed that--I do not want to go into each individual 
case, and the President has sent nominees to the Senate Foreign 
Relations Committee in consultation with the Secretary, and 
those are the administration's nominees.
    I hope Under Secretary Carpenter would agree with me that 
in that review--and you have got to really take into account 
the totality of somebody's career.
    I think, though, I would agree with your underlying point 
that from here on, I think anybody who is aspiring to be a 
chief of mission, who is now a junior officer and looking for 
their way up through the Department really has got to pay much 
more attention to security awareness, and while I tried to 
highlight in my testimony the importance that Strobe Talbott 
put, not only on your personal security awareness, but your 
ability to convey that to all the people in your mission.
    Senator Grams. There are many of us, I think, who feel that 
it probably should not have gotten to this point, or we should 
not have been concerned with this because it should have been 
handled prior to this.
    And I noticed in your testimony you said security was 
important, and you said the vast, vast majority of employees at 
State are very good at what they do, and minimum numbers, but 
you said there are a few that--if I can read my own writing 
here--there are a few that neglect these.
    My question would be: Why then are nominations taken from 
this pool of the few that neglect, rather than from the vast 
number who do their job and do it well? And I imagine I am 
putting a burden on you to answer a question that you probably 
do not have much control over right now.
    Ambassador Grossman. Well, I just want to be clear on two 
things: One, the quotation I gave you, Senator, was from the 
Secretary, and that was her observation in the Town Hall 
meeting.
    Senator Grams. Well, then she made the nomination or----
    Ambassador Grossman. Well, no. I am saying I think it is--
--
    Senator Grams. OK. Right.
    Ambassador Grossman. No. What I am trying to say is I think 
it is right, as Assistant Secretary Carpenter said, that the 
vast majority of people in the State Department take this 
seriously.
    And again, I mean I have been the Director General for 4 
days, but I would assert to you, just kind of blindly I guess, 
that I do not think that anyone is sending up nominees from a 
pool of the failures. People are sending nominees who they 
believe, and the President and the Secretary believe, can be 
chiefs of mission.
    Senator Grams. Now, the limitations on ability to punish at 
present, what are the new numerical and time limitations, the 
``bars,'' to adverse personnel actions as a result of 
accumulation of security infractions and violations? What are 
the numerical and the time limitation ``bars'' that are set?
    Ambassador Grossman. Well, I--let me start again----
    Senator Grams. OK.
    Ambassador Grossman [continuing]. And I will be glad to 
have Assistant Secretary Carpenter help me. One of the reasons 
that we put into my testimony these precise numbers is because 
right now you need--if you get four security infractions, you 
get a letter from Diplomatic Security warning you, saying it is 
too many, do differently, pay more attention.
    Then Assistant Secretary Carpenter and I, in our 
recommendation, will recommend that number be cut in half, 
and--so that that number goes to two, and after two you would 
get a warning.
    The second numerical issue, Senator, as I understand it, is 
right now you need to get five of these infractions before any 
kind of discipline is taken into account. So, up until five, 
this is all a matter for Assistant Secretary Carpenter, his 
people. At the fifth, it ends up with me and the nice people 
who work for me.
    What we are going to recommend is that number go down to 
three, so that we do not wait so long to kind of capture 
people's attention and say, ``You are going down the wrong path 
here.''
    Senator Grams. Now, when you say you are going to suggest 
or recommend----
    Ambassador Grossman. Right.
    Senator Grams [continuing]. Who is going to act on these or 
where will those recommendations go, and will this go to the 
Secretary and----
    Ambassador Grossman. Yes. I mean it is the Secretary's 
Department and it would be presumptuous for me to say that, you 
know, he and I have taken all these decisions today, and I hope 
you will understand that.
    But we intend to make these recommendations and obviously 
it is her Department and her decision. She will make the choice 
that she makes.
    But we wanted to be up front with you about what we will 
recommend and how we will do that. But as I say, you can 
understand from my position, I cannot tell you how she should 
run her Department.
    Senator Grams. And I asked you this in the office last 
week, but I will ask it again----
    Ambassador Grossman. Yes.
    Senator Grams [continuing]. On the record. But, you know, 
why should there be any kind of a time limitation at all? Would 
it not still be possible for an individual to get dozens of 
violations and never be subject to adverse personnel actions at 
all if you stretch it out over a longer period of time?
    Ambassador Grossman. Well, no. I think one of the--as you 
suggested in your letter and in your testimony, I think one of 
the things about having these infractions now travel solves 
that problem. I think we have--we did face that----
    Senator Grams. Right.
    Ambassador Grossman [continuing]. Problem. As I understood 
it before, you could----
    Senator Grams. OK.
    Ambassador Grossman. [continuing]. Have some violations 
over here and move to another post and you would essentially 
start from zero. But I believe--and you know we will have to 
see how it all works, but I believe that by having these 
reported to the Department, having them travel and having one 
place where Diplomatic Security will know the totality ought to 
solve that problem.
    Senator Grams. Will it still be erased though after 18 
months is what I am asking, as if there is a time limitation--
should there be a time limitation at all on some of these 
infractions or violations?
    Ambassador Grossman. Well, at the moment, I know that the 
law strengthened a year ago as a result of some work that the 
House and the Senate Foreign Relations Committee did together 
to make sure that when someone is disciplined it stays in the 
file until their next promotion, for a couple of cycles, I 
think 2 years until they are promoted again.
    And that is something that we have talked about a lot, and 
the law is new. We have to assess how it is working. We 
discussed this this morning actually. Neither of us would be, 
you know, sort of hard and fast at keeping this forever. I 
think if it did not work, I would change it.
    But right now, we have got this new law. We ought to see 
how it works. But as I say, my point to you is that if a year 
from now it is still not working, I would change it. I have got 
no religion on this.
    Senator Grams. OK. Does the Director General have any 
discretion not to issue any kind of punishment if a case is 
referred--do you have that type of discretion?
    Ambassador Grossman. To not issue punishment?
    Senator Grams. Right. To not issue any kind of a punishment 
if a case is referred for a number of violations.
    Ambassador Grossman. I do not know. People have told me I 
have a lot of power. I am not sure I have total power over 
this. What I do know is that we have the capacity to reprimand 
people. We have capacity to put letters in people's files. We 
have the capacity to suspend people without pay for a certain 
amount of time.
    We also have people--capacity, I guess, ultimately to 
separate people for cause if that is what would be required. I 
mean that would be a decision, I think, that would be taken 
above me.
    And I want to be clear, people also, very importantly, have 
rights in this regard, and they have rights to grieve and they 
have rights to say--you know, tell their own story. And I think 
that is a very important thing.
    So, when I answer these questions, I am describing what I 
can do, but it is inside of, I think, a very proper system of 
grievances and considerations.
    Senator Grams. Would that discretion also be not to issue 
any kind of punishment? I mean, do you have that kind of 
latitude?
    Ambassador Grossman. I believe so, as it has been explained 
to me.
    Senator Grams. Right.
    Ambassador Grossman. I have not done this yet, but as it is 
explained to me, people propose punishment, that that is how 
the system works, and then it is my decision about accepting 
that proposition, increasing that proposition, mitigating that 
proposition. So, I do think I have some discretion there.
    Senator Grams. And do you have any statistics on the kinds 
of disciplinary action that was taken in security violations 
that were referred to the Director General last year? Do you 
know how the office handled some of those recommendations?
    Ambassador Grossman. I do not, Senator, but I would be glad 
to look into them and report to you.
    [The following information was subsequently supplied:]

                     Response of Hon. Marc Grossman

    Question. How is the Director General's office handling the 
security incidents reported last year?

    Answer. The following list reflects the number and type of security 
incidents and the discipline imposed from June 1999 to the present:

Foreign Service Security Infractions (within the controlled access 
    area).........................................................    23

    Letters of Admonishment....................................... 2    
    Letters of Reprimand..........................................15    
    Suspensions................................................... 6    
        5 suspensions issued for 1 Day
        1 suspension issued for 5 Days

Pending Infraction Cases..........................................    18

    Proposed letters of Reprimand issued to employees.............12    
    Proposed letters of Suspension issued to employees............ 6    

Foreign Service Security Violations (outside the controlled access 
  area)

    Suspensions...................................................     2
        1 suspension issued for 1 Day
        1 suspension issued for 10 Days

Pending Violation Cases...........................................     2

    Proposed letters of Suspension issued to employee
        1 suspension issued for 5 Day
        1 suspension issued for 10 Days

Civil Service Security Infraction

    1 Letter of Reprimand.........................................     1
                                                                  ______
        Total Cases...............................................    46

    Senator Grams. All right. I appreciate that.
    Mr. Carpenter, as I mentioned in my opening statement, I 
was ``stunned'' to find that all security infractions and 
violations are not put into a central data bank. And again, we 
talked about this earlier and that security violations drop off 
when an individual changes posts, and I know we have addressed 
this; and you have in your statement, as well.
    But would you describe how the system functions now and, 
again, the way the changes are that you are proposing?
    Mr. Carpenter. Right. What I can do, Mr. Chairman, is 
describe to you what the procedures used to be, and what we are 
in the process of gravitating to.
    In your reference to security violations not traveling with 
an employee, in the past if an individual incurred three 
infractions--again, infractions being of a lesser note--those 
were never reported to Diplomatic Security. There was not a 
requirement that those be reported back to us.
    Violations were different. Violations were more serious, 
were reported immediately. But infractions, until it reached 
the bar of four, at which time we would issue a letter of 
warning, there was no requirement to pass that information 
back. That is what we are in the process of changing.
    Secondarily, there was, as I mentioned, prior to 1995 no 
distinction made between infractions, lesser offenses where no 
compromise was involved, and violations.
    So, what we are giving you on some of the nominees have 
been lists of violations, in some instances, dating well back 
before 1995. It is very possible, highly probable--in fact, the 
majority of these were, in fact, by today's definition, 
infractions.
    What our hope is--what our desire is to do is have a data 
base that stays from the day the employee comes on the job 
until the day they depart--the employee separates from the job, 
a data base that would capture all infractions, all violations. 
And those will be ready reference for Diplomatic Security and 
also the Director General upon demand.
    Senator Grams. Why has there been an intermediate step 
where violations are reported to Diplomatic Security in 
Washington, but not forwarded immediately to the Director 
General?
    Mr. Carpenter. As you know, Mr. Chairman, I have only been 
at the Department 2 years. I do not know. I know that in 1995 
a--I am told that in 1995 a decision was made to that effect. I 
am not sure of the logic behind it, nor would--quite frankly, 
would I be supportive of that type of a decision, but that is 
what we are trying to work out now. I disagree with the logic 
of that.
    Senator Grams. OK. How does the Bureau of Diplomatic 
Security exercise its influence in the regional and functional 
bureaus at the State Department and also at our missions 
overseas? And are these effective arrangements? And what would 
you change, if anything?
    Mr. Carpenter. We are definitely engaging on these issues 
on a more regular basis, whether it be through training 
programs, security briefings that we are doing for all the 
bureaus or whether it is one-on-one involvement between myself 
and the Assistant Secretaries for each of the bureaus, their 
respective deputies.
    The awareness, as I mentioned in my statement, of the 
security problems that we have encountered and the necessity to 
change those has risen well beyond anything that I have seen in 
the past 2 years since I have been there. In the last 3 to 4 
months, there clearly has been a change in attitude.
    I think the Secretary's Town Hall meeting was a wake-up 
call for the Department. Diplomatic Security is working very 
hard to have security briefing programs that the Department--
that addresses the specific needs of the Department, answer the 
questions they have, make ourselves available. That process is 
ongoing.
    It has been very constructive. As a matter of fact, only 
yesterday I got feedback from a group of post-management 
officers representing all the bureaus, who raved quite frankly, 
about the program, feel that it is constructive and feel that 
they now have a better handle on what their requirements and 
responsibilities are.
    Senator Grams. Is it just basically trying to sharpen some 
of those lines from gray to black and to make it so they 
understand them as well and are able to carry out some of these 
responsibilities?
    Mr. Carpenter. Exactly. I think clearly there is--with the 
way that the State Department rotates personnel in and out of 
posts, I mean there are a lot of rules. There are a lot of 
regulations.
    There are people finding themselves in positions that they 
are, in some ways, unfamiliar with and there is a learning 
curve there. It is incumbent upon us to make sure that they 
have all the security data available to them, know what their 
responsibilities are.
    And not only are we approaching them, but they are now 
beginning to approach us at unprecedented levels asking, ``What 
is it that I need to know about security in this particular 
job?''
    I think that is positive. I think that is the way that we 
are going to develop a culture at the State Department that 
speaks to security. I think we are well on our way there. The 
goal, of course, is to keep this momentum going in that 
direction.
    Senator Grams. Mr. Grossman, as I mentioned in my opening 
statement also, unfortunately this committee found out the hard 
way that personnel records and diplomatic security need to be 
reconciled. We had a nominee before this committee who we 
thought had four violations when this individual actually had 
fourteen.
    Why are personnel records different from diplomatic 
security records of security infractions and violations? Why 
has it been separated in the past? I know we get some solutions 
recommending for the future, but----
    Ambassador Grossman. I do not have--know how to describe it 
in the past. My guess would be, and here if Assistant Secretary 
Carpenter could help me, was I would imagine that over time--
how do I put this?
    I imagine there are things in a security file that are 
really for security people that have to do with people's lives, 
and they are not for the people who work in personnel, with all 
due respect to the nice people who work for me.
    And I think in terms of people's privacy and their rights, 
there ought to be a way to keep the certain things that a 
security officer needs to know, where everybody is not perfect 
in their lives, and that ought to be as closed and as limited 
as possible.
    I think where the mistake was made, if one was, if you are 
looking backward, was that all these security violations and 
infractions and incidents got lumped into there; and it leads 
to exactly what we have all been talking about, which is that 
one side of the place does not know what the other side of the 
place is doing.
    But I would be very hesitant about--again, I do not want or 
mean to speak for my colleague here, but I would be very 
hesitant about trying to merge all of these things because of 
what he needs to know about people, I guess, and what I need to 
know about people. It is different.
    Senator Grams. Could there be a difference in the violation 
or the infraction that would cause one to go into a security 
file and one into just a diplomatic file, or should they always 
go into one file and not be segregated?
    That is why I was wondering how once a violation is found 
that it goes into one file or the other, and I am not talking 
about mixing, you know, a lot of the security information. We 
would not propose to do that, but something like this probably 
should find its way into one or the other so it can be found. 
That is, I guess, what I was asking.
    Ambassador Grossman. I think one way that this will happen 
certainly more quickly now is if the Secretary or who makes 
this decision, accepts the proposition that we make to 
radically lower the numbers. I think you will have a lot 
quicker movement, first to a warning letter and second, then, 
to this issue of discipline. And of course, once there is 
discipline taken, there is no question then it is in somebody's 
personnel file.
    Senator Grams. And again, why are records of disciplinary 
warnings dropped from an individual's personnel file after 1 
year, and also records of suspensions dropped after a 
promotion? Once a person has a promotion, it is taken off the 
record.
    Why should not the file be comprehensive? Is there a reason 
that that had been done, too, in the past, that these 
violations or infractions would be dropped from the record at a 
certain time rather than a part of the history?
    Ambassador Grossman. Right. I suppose, Senator--and again, 
I am just learning about these things and maybe Dave can help 
me out here--but partially it is because, as he described, if 
you have a difference between infractions and violations, I 
think there is a general sense of two things.
    One is that people--how do I put this--is that one of the 
purposes of having all of this system is to change people's 
behavior, and one of the purposes of this system is to make 
people pay attention, and it is not to penalize people for the 
rest of their lives.
    And I think, probably, there was a sense that if you could 
define these pieces and if there was one infraction that did 
not meet the standard of a violation, however it is defined by 
Diplomatic Security, and that went into somebody's file, and if 
after 1 or 2 or 3 years there were no others, that your 
system--your disciplinary system had actually worked, that you 
had said ``pay attention,'' and this person had paid attention 
and that the price of that, therefore, was--for the system, was 
that it comes out of their file.
    Now, again, Dave and I have talked about this a fair 
amount, and again, it is not something on which I have 
particularly, you know, great religion. I think if you needed 
to do more to get people to pay attention, you might adjust 
those things.
    But for the moment, I think given the way things work and 
the other kinds of changes we are trying to make, it is 
probably not one of the places that I would change right away. 
I mean I will take your advice on that, but that is sort of my 
instinct about it.
    Senator Grams. I was just thinking because I got stopped 
one time for just about breaking the speed limit, not quite, 
but the officer was able to look back and find that I had not 
had a ticket for 15 years. He had a record of all the tickets--
--
    Ambassador Grossman. Right.
    Senator Grams [continuing]. But then gave me credit for 
having a clean record for 15 years. So, that is what we are 
kind of saying, that would take into consideration, that if the 
system has worked, the disciplinary actions have worked and 
there has been no violations for 4 years----
    Ambassador Grossman. Right.
    Senator Grams [continuing]. But then to ignore the past, 
that is the concerns that I think that we have.
    Ambassador Grossman. No. I understand. I think that sort of 
in the general considerations of fairness, if you have a 
violation as a junior officer, for example, and do not have 
any--and after 4 or 5 years, or as you say in terms of 
promotions, that it then goes away and you do not get another 
one, you know, I think actually that is a positive and not a 
negative, because it--at some point, you have got to encourage 
people to come along and do the right thing.
    What really concerns us, and as the Secretary said in her 
Town Hall meeting, it is the few people who do not seem to get 
it.
    Senator Grams. Mr. Carpenter, how many State Department 
employees have accessed SCI, and how can this high level of 
classified information be kept secured by the number of people 
that have accessed it? And I say that because I believe there 
is a high number. It may be higher than necessary, but first 
the number, and then how can it be kept secure?
    Mr. Carpenter. Mr. Chairman, there is a high number, and I 
am hesitant--I am going to say the number is around--between 
5,000 and 6,000, if I am not mistaken----
    Senator Grams. Yes.
    Mr. Carpenter [continuing]. How many are cleared for SCI 
information. Your question is and I well understand. The more 
people that have access to that level of sensitive information, 
the more probability of leaks, unauthorized disclosure, 
mishandling of that material.
    We are in the process, as you know, of assuring the 
responsibility for the security of SCI--the Secretary just 
recently passed that to Diplomatic Security. We are doing, 
again, a top to bottom scrub on who has SCI clearance, why they 
have it, where this information is delivered within the 
Department daily. Do we need to limit the number of personnel 
with SCI clearances? Do we need to limit the number of 
locations under which it is--to where it is delivered or read?
    That is a process that we hope to have completed in the 
next 60 days. We are working very aggressively to get our hands 
wrapped around this.
    Senator Grams. And I think those are even more heightened 
concern because I think in Los Alamos there is only 26 or 24 
that had top security clearance into an area, and we lost two 
hard drives that all of a sudden reappeared. But the more that 
have that type of access, of course, the harder it is to watch 
it and police it.
    Mr. Carpenter, since you began serving as Assistant 
Secretary for Diplomatic Security, are you aware of any 
instances where the Bureau of Diplomatic Security recommended 
that an individual not receive security clearance and the State 
Department ignored that determination?
    Mr. Carpenter. No, sir. I am not aware of a single incident 
of that.
    [The following information was subsequently supplied:]

                  Response of Hon. David G. Carpenter

    Question. Has the Department ever overruled a DS decision not to 
issue a security clearance to a prospective employee?

    Answer. The Department has never countermanded a DS decision to not 
grant a security clearance to a prospective employee. Prior to August 
1995, there was no process in place that permitted an applicant to 
appeal DS' decision to not issue him/her a security clearance. However, 
in August 1995, Executive Order 12968 was issued, which provided a 
method whereby a prospective employee could appeal such a ruling to the 
Director General. Since 1995, DS has denied five applicants security 
clearances. None of these persons exercised their right to an appeal.

    Senator Grams. OK. And speaking of sloppiness, probably 
regarding security procedures, what is the state of play in the 
missing laptop computer?
    Mr. Carpenter. The investigation continues. The laptop has 
not been recovered. We are working, as you know, with the FBI 
which has the lead in this investigation. We are working 
closely with them.
    The latest is, that I am at liberty to discuss, is that the 
FBI will be meeting with all employees of INR next week, early 
next week to discuss next steps, additional interviews that 
need to be conducted and so forth. The investigation is 
ongoing, in short.
    Senator Grams. Mr. Carpenter, how much credibility does an 
ambassador have in his or her ability to enforce security 
procedures and standards at an embassy if either he or she has 
been found to have reoccurring violations of security 
procedures?
    Mr. Carpenter. Mr. Chairman, as the Director General 
referred to earlier, I believe that the security responsibility 
starts at the top. The atmosphere that the ambassador creates 
is reflected in all employees.
    If the ambassador is tough on security, it is understood 
that this is important to him, then that is a post that, quite 
frankly, in my experience has shown to be exemplary when it 
comes to security.
    When it is of a lesser importance, and it is understood by 
the members of an embassy that it is of less importance to the 
ambassador, we seem to have problems there.
    Every ambassador that I speak to that goes out, I drive 
that point home, that the attitude about security at the 
embassy is going to be--it is going to start and stop with him, 
and that we hold him personally responsible to ensure that the 
right attitudes are established.
    Senator Grams. Mr. Grossman, I would ask you the same 
question. How much credibility does an ambassador have if they 
have had a history of reoccurring violations themselves?
    Ambassador Grossman. Well, I cannot say any better than 
what Assistant Secretary Carpenter said. I believe that 
completely.
    Senator Grams. On employee evaluations, on the Foreign 
Service employee, Mr. Grossman, evaluation form for the 
employees, raters are required to assess a number of qualities 
such as cultural sensitivity.
    Why is there no requirement for evaluation of a Foreign 
Service officer's security performance, including a statement 
of whether security infractions were received during the rating 
period on the Foreign Service employee evaluation form?
    I have one, but not something that even Secretary of State 
Albright said was very much--or one of the most important 
aspects of the individual's record.
    Ambassador Grossman. I think--well, one of the reasons that 
we proposed to you today--and I look forward to having 
consultations with my friend Marshall Adair, because that is 
exactly what we want to do.
    We would like to find a way to put into the promotion 
precepts and also into the efficiency report form, an explicit 
conversation about what I call security awareness and 
accountability.
    I do not want to leave you with the impression that the 
only thing on an employee report form is cultural sensitivity. 
There are lots of other things there, whether it has to do with 
internal controls and getting their jobs done. I think actually 
that some focus here on security is going to be additive to 
that and really good.
    And if you do not mind, the other reason that I wanted to 
make a point of making sure that every single embassy and every 
single bureau has security in their mission program plans and 
their bureau program plans is I think one of the smartest 
things that one of my predecessors did is require everybody now 
in their efficiency report to report on how they did moving 
forward with the plan. So, if security is part of the plan, one 
of your responsibilities is to pay attention to security.
    Senator Grams. Right. And that is what I was trying to get 
at, but if we are including things in that list, including 
cultural sensitivity but then leave out security, it depends on 
where it is ranked then, or it appears.
    Ambassador Grossman. Understood.
    Senator Grams. Absent a reference to security performance 
on an employee evaluation form, are there any other ways in 
which a poor security performance or probably resulting adverse 
personnel actions may be brought to the promotion board's 
attention?
    Ambassador Grossman. Well, certainly if there was a letter 
of reprimand or any other disciplinary action, that would 
certainly be in the promotion board's file. When they opened it 
up, they would see a copy of that letter or the administrative 
action that said, you know, they were suspended for a certain 
number of days. That would certainly be reflected there.
    Senator Grams. Mr. Carpenter, would you have anything else 
to add to that? Other than security performance on an 
employee's evaluation form, would there be any other ways in 
which a poor security performance or resulting adverse 
personnel action be brought to the attention of the promotion 
board itself? Is that the only way you can report on somebody's 
actions or activities?
    Mr. Carpenter. There may be other ways, Mr. Chairman. I 
think that is something that we are going to have to explore a 
little deeper.
    My instinct is to say that there are resources available to 
promotion panels that they can tap into if they are, in fact, 
concerned about an employee's performance, if they want other, 
additional information. In other words, a letter of reprimand 
or reference to a violation, they want to expand on, Diplomatic 
Security stands ready to provide personnel to engage with that 
promotion panel if they need more information. That could 
possibly be a value added to the process.
    Ambassador Grossman. There is also the Inspector General. 
When the Inspector--they go out and inspect a post, certainly 
our Ambassadors in DCM----
    Senator Grams. Right.
    Ambassador Grossman [continuing]. They write a very 
specific report and that is certainly, I think, also part of 
the file as well.
    Mr. Carpenter. Another new addition with Diplomatic 
Security involves our creation of 11 positions around the world 
for what we are calling regional directors of security who will 
go out and engage with post-management on a number of topics, 
all security related, I might add.
    But how is our RSO doing, how is post-management doing 
relative to security to sort of--to troubleshoot our programs 
in the field. This would be another way that--another forum 
that we could surface information to promotion panels on posts 
and individual performances.
    Senator Grams. Mr. Grossman, on promotion boards, volume 
three of the Foreign Affairs Manual places great emphasis, and 
I think rightly so, on designating Foreign and Civil Service 
positions in terms of their national security sensitivity.
    Yet in the same volume, the regulations on Foreign Service 
promotion board precepts do not even mention, let alone 
require, that the boards consider an officer's security 
performance. How do you account for the contradiction, and 
again we are kind of going back to cultural sensitivity 
compared to security?
    I do not know. Where can we reconcile this and what would 
be some of your ideas to change it?
    Ambassador Grossman. Well, my ideas, I think, would go back 
to--in the response that I gave in my testimony and certainly 
the ideas that you had in your letter. I think this really 
starts obviously from the top, but it is also very important, 
as you recommended and we believe and I hope our friends from 
the Foreign Service and Civil Service unions will agree, but 
this ought to be part of the precepts.
    It ought to be part of the promotion process at the State 
Department, and if we can do that, and then it has to--should 
go into the Foreign Affairs Manual, I suppose. I think the 
important thing here is that we get the precepts changed, and 
then work to get them into the Foreign Affairs Manual.
    Why there is this difference, Senator, I think one of the 
reasons that Dave and I have been working so hard together over 
these past few months, and obviously the Assistant Secretary of 
European Affairs, is we need to move more and more of the 
people to consider that the State Department is part of our 
national security apparatus, and when you say very properly the 
people ought to act like that and they ought to think like 
that, this is what we are trying to do.
    When we come here to the House or to the Senate and we say 
we need money and we need people and we are part of the 
national security apparatus, well, we have a job to do as well, 
and I think paying more attention to security is part of that.
    We want to be part, and we want to be seen as one of those 
kinds of agencies; and this is the kinds of things we have to 
do.
    Senator Grams. And one final question: Mr. Grossman, you 
are currently able to remove from Foreign Service promotion 
lists the name of officers who display a lack of security 
consciousness. Would you commit to this committee to do so?
    Ambassador Grossman. Senator, let me first say that I hope 
that if we do our jobs right in terms of the promotion precepts 
and promotion panels and information available to them, that 
the boards themselves will do their job right. And I think that 
is how you and I would consider it a real success, is if I 
never see one of those kinds of cases.
    I would like these promotion boards to look at efficiency 
reports, make their decisions and do right by what you think 
and do, by what I think. But too, if you ask me would I be 
prepared if a case came before me where a promotion board had 
not done right or had somehow been split and the question came 
to me, would I take somebody's name off a panel, absolutely I 
would.
    I want to make one other thing clear, because I have got a 
lot of advice here in this--getting ready for this hearing. But 
that of course is not the end of the matter. The person who 
that might happen to, theoretically, of course has every right 
to grieve that decision, to put out their point of view. So, I 
do not want to leave you with the impression that that might be 
the end. But if you are asking me what I would do, I would not 
hesitate.
    Senator Grams. Mr. Carpenter, before I conclude, too, would 
you go back and check whether the State Department has ever 
given clearance to an individual that DS thinks should not have 
been given that type of clearance? And I guess I ask that 
because I want to make sure that it has not happened. But would 
you do that?
    Mr. Carpenter. I made a note of that, Mr. Chairman. I would 
be glad to. I am curious myself.
    [The following information was subsequently supplied:]

                  Response of Hon. David G. Carpenter

    Question. Has the State Department ever given clearance to an 
individual that Diplomatic Security thinks should not have been given 
that type of clearance?

    Answer. The Bureau of Diplomatic Security (DS) issues security 
clearances to applicants for sensitive positions with the Department of 
State. At no time has DS ever issued a clearance to an applicant that 
did not meet the national adjudicative criteria.
    In conjunction with the Foreign Service promotion process, the 
Bureau of Human Resources (HR) coordinates with DS on employees being 
considered for Foreign Service promotion. DS notifies HR's Office of 
Performance Evaluation (HR/PE) whenever a potential promotee is the 
subject of an ongoing or previous adverse investigation, to include: 
periodic reinvestigations for cause, suspensions or proposals to take 
an adverse action against an individual's security clearance. HR/PE is 
also notified of the security incident history of those individuals who 
have been proposed for promotion. The Director General has discretion 
whether to promote the individual or hold the promotion in abeyance 
until the DS issue is resolved.

    Senator Grams. OK. All right. Anything else you gentlemen 
would like to add?
    Ambassador Grossman. Just thank you very much for the 
opportunity.
    Mr. Carpenter. Thank you, sir.
    Senator Grams. I appreciate very much again your time in 
coming before the committee. And I know, Mr. Carpenter, we have 
done this a number of times, and I hope the next time it is in 
more of a social setting than in a committee hearing dealing 
with this issue. So, thank you very much for being here.
    Mr. Carpenter. Thank you very much, sir.
    Senator Grams. Mr. Grossman, thank you.
    Ambassador Grossman. Thank you.
    Senator Grams. I would like to call our second panel: Ms. 
Fern Finley, president, Local 1534 of the American Federation 
of Government Employees, Washington, DC--Ms. Finley, thank you 
very much--and also, Mr. Marshall Adair, president of the 
American Foreign Service Association, Washington, DC.
    Thank you both for taking your time to be here and joining 
us. And if you have an opening statement, the committee is 
ready to accept your statement.
    Ms. Finley.

STATEMENT OF FERN O. FINLEY, PRESIDENT OF LOCAL 1534, AMERICAN 
   FEDERATION OF GOVERNMENT EMPLOYEES; ACCOMPANIED BY: GARY 
 GALLOWAY, VICE PRESIDENT, LOCAL 1534, AMERICAN FEDERATION OF 
              GOVERNMENT EMPLOYEES, WASHINGTON, DC

    Ms. Finley. Thank you, Mr. Chairman, for inviting Local 
1534 of the American Federation of Government Employees to 
testify before the committee today. Local 1534 represents more 
than 6,000 Civil Service bargaining unit employees in the 
Department of State, the U.S. Agency for International 
Development, and the Overseas Private Investment Corporation.
    Senator Grams. Ms. Finley, could you just bring that mike a 
little bit closer? Thank you. And down just a little bit. I 
know I am having a hard time, and I would imagine----
    Ms. Finley. Shall I start over again?
    Senator Grams. No. I think that is fine. You are OK.
    Ms. Finley. OK. Thank you.
    Senator Grams. Thank you.
    Ms. Finley. Mr. Chairman, we share your concern about the 
critical issue of security in the State Department. We will 
work closely and expeditiously with the Department's management 
to develop procedures that achieve this critical objective.
    However, we have not prepared a written statement or 
testimony to present to the committee at this time. We will be 
very happy to work with them and answer any questions that you 
or other members of the committee might have.
    Should any questions arise that require a more extensive or 
written response, we will promptly submit them for the post-
hearing record. Thank you.
    Senator Grams. Thank you very much, Ms. Finley.
    I should have mentioned that before the other witnesses 
left, that we will keep the record open officially for at least 
three business days so that any other members of the committee 
that would want to present a question to you in writing, that 
they can do so and expect a quick response. So, I hope Mr. 
Carpenter and Mr. Grossman also have that opportunity to 
respond.
    Mr. Adair.

  STATEMENT OF MARSHALL P. ADAIR, PRESIDENT, AMERICAN FOREIGN 
              SERVICE ASSOCIATION, WASHINGTON, DC

    Mr. Adair. Thank you, Mr. Chairman. I did submit a written 
statement, and I request that it be put into the record.
    Senator Grams. So noted.
    Mr. Adair. I will try to make my statement a little bit 
shorter, but I am afraid I cannot compete with the admirable 
brevity of my colleague here.
    I thank you very much for inviting us to testify today. We 
consider security to be critical to effective diplomacy, and we 
are pleased to have the opportunity to work with you on it.
    The American Foreign Service Association [AFSA] is an 
unusual organization in that it is both a union and a 
professional association. As a union, we are concerned with the 
welfare of individuals in the profession of diplomacy. As a 
professional association, we are concerned with the standards 
and effectiveness of the profession.
    In recent years, we have focused primarily on the issue of 
security of personnel. Concerned with increasing terrorist 
threats, we have worked hard to ensure that more attention and 
more resources are devoted to protecting our people, 
particularly overseas. And in that regard, I would like to 
thank you for all the support that you have given us in this 
regard from this committee.
    We also appreciate the article you did in the Foreign 
Service Journal this month, and I commend it to everyone in 
this room, but particularly your work on the authorization 
bill. Through your work, we believe you set an example, both 
for the Congress and the administration, and we hope that 
everyone will live up to that example. Thank you.
    Senator Grams. Thank you.
    Mr. Adair. Security of information is also essential. Most 
recently you brought to our attention the fact that a number of 
recent ambassadorial nominees have a history of security 
violations that may raise questions about their suitability for 
those positions.
    As the Department has provided us with no details on these 
cases, we have to reserve judgment on the cases themselves. 
However, at the very least, we do share your concern that the 
information on security violations, which was shared with the 
Congress, was apparently not made available to those in the 
Department who actually made the nominations.
    AFSA is willing to work closely with the Department of 
State, the administration and the Congress to improve security 
management. As a professional association, we want to ensure 
that our professional service maintains the highest possible 
standards and ability to protect sensitive information. As a 
union, we must ensure that individuals in the Service are given 
the necessary guidelines, training and support to meet those 
standards and perform effectively.
    Your letter to Ambassador Grossman listed ten areas of 
possible action to ensure that the personnel system at the 
Department of State does a better job of reinforcing security. 
We have looked at those suggested changes, although we did not 
have a whole lot of time to look at them, and while the details 
are as yet unclear, and will be important, AFSA does not object 
in principle to any of them.
    We are prepared to work closely with the Department to 
select the most appropriate measures, define them clearly and 
implement them as quickly as possible.
    However, the Department should not stop with measures to 
enhance security awareness. It must also take steps to provide 
employees with the necessary tools to do their jobs in a secure 
way, and to provide a supportive environment for security.
    For instance, we need an ongoing dynamic review of 
classification procedures to prevent over classification and 
ensure the system is not overloaded.
    We need a system of followup and counseling to look at 
security violations, examine the causes and propose individual 
and systemic improvements to avoid future violations.
    We need cutting edge research on secure electronic 
information management to provide better tools to meet the 
unique needs of diplomacy and foreign policy management in a 
changing world. And we need better training for all employees 
on available tools and how to use them to perform their jobs 
without compromising security. Resources are critical.
    And I cannot stress this enough: Logistical support for 
diplomacy is just as important as logistical support for the 
military, and the foreign affairs account has been underfunded 
for many years. We need look no further than the issue of 
embassy security.
    In spite of your personal efforts, the administration still 
has not requested and the Congress has not appropriated the 
funds recommended by Admiral Crowe to bring our overseas posts 
up to proper security standards.
    Information security has similar needs. The research 
mentioned above probably compares to a major defense project in 
scope and expense.
    In addition, a serious improvement of security at the State 
Department building will require major design and construction 
work to separate classified and unclassified areas, as well as 
significant new efforts to monitor security and escort 
visitors.
    Senator Grams, the American Foreign Service Association 
deeply appreciates the support that you have given to the 
Department of State and the Foreign Service in improving 
security at overseas posts.
    We will do our best to address the concerns that you raise 
today, and I hope that we can count on your support in the 
future. Thank you. I will try to answer your questions.
    Senator Grams. Thank you very much, Marshall.
    [The prepared statement of Mr. Adair follows:]

                Prepared Statement of Marshall P. Adair

    Thank you, Mr. Chairman, for inviting the American Foreign Service 
Association to testify today on the role of security in the State 
Department promotion process. Security of personnel and security of 
information are critical to effective diplomacy. AFSA is concerned with 
both, and we are pleased to have the opportunity to work with you.
    I would like to give you first a little background on the American 
Foreign Service Association (AFSA) and our perspective on these kinds 
of issues. AFSA represents 23,000 active duty and retired Foreign 
Service personnel. It is an unusual organization in that it is both a 
professional association and a union. As a professional association, it 
is concerned with the standards and the effectiveness of the diplomatic 
profession. As a union it is concerned with the welfare of the 
individuals in that profession.
    In recent years, AFSA has focussed primarily on security of 
personnel. We have been particularly concerned with increasing 
terrorist threats, and we have worked hard to ensure that more 
attention and more resources are devoted to the protection of our 
people and our posts overseas. In that regard, I would like to thank 
you for recognizing the danger, and for giving us so much support from 
your position on this committee. The Secure Embassy Construction and 
Counterterrorism Act which you sponsored last year set the right tone 
and the right parameters for addressing this problem, and we hope both 
the Administration and the Congress will live up to the example you 
set. I also appreciate the article that you did for the Foreign Service 
Journal this month.
    Security of information is also essential. Over the last two years 
there have been several high profile incidents that had at least the 
potential to damage our national security, and which have reminded us 
all of the need for constant vigilance. Most recently, you have brought 
to our attention the fact that a number of recent Ambassadorial 
nominees have a history of security violations which may raise 
questions about their suitability for these positions. As the 
Department has provided us no details on any of these cases, we must 
reserve judgement on the cases themselves. However, we share your 
concern that the information on security violations which was shared 
with the Congress was apparently not made available to those in the 
Department who actually selected these individuals for nomination.
    AFSA is willing to work closely with the Department of State, the 
Administration and the Congress to improve security management. As a 
professional association, we want to ensure that our professional 
service maintains the highest possible standards and ability to protect 
sensitive information. As a union, we must ensure that individuals in 
the service are given the necessary guidelines, training and support to 
meet those standards and perform effectively.
    Your letter to Ambassador Grossman lists ten areas of possible 
action to ensure that the personnel system at the Department of State 
does a better job of reinforcing security. They are:

  <bullet> Including security criterion in the promotion board 
        precepts;

  <bullet> Including security performance in employee evaluation forms;

  <bullet> Exercising the Director General's discretion to strike names 
        of security violators from promotion and nomination lists;

  <bullet> Ensuring security performance records travel with an 
        employee from post to post;

  <bullet> Reconciling Personnel and Diplomatic Security records and 
        making them available to promotion boards and raters;

  <bullet> Lowering the numerical and temporal ``bars'' to adverse 
        personnel responses to accumulated security infractions and 
        violations;

  <bullet> Listing violations monthly in State Magazine

  <bullet> Providing Diplomatic Security with an opportunity to make 
        security related inputs to employee ratings;

  <bullet> Incorporating security awareness curriculum into Department 
        training programs at all levels;

  <bullet> Providing annual security refreshers for all employees with 
        access to classified information.

    While the details of these suggested changes are unclear and will 
be important, AFSA does not object in principle to any of them. We are 
prepared to work closely with the Department to define them clearly and 
to develop appropriate and effective ways of implementing them as 
quickly as possible.
    However, the Department should not stop with measures to enhance 
security awareness. It must also take steps to provide employees with 
the necessary tools to do their jobs in a secure way, and to provide a 
supportive environment for security. For instance:

  <bullet> The amount of classified information continues to increase 
        rapidly. Some steps have been taken in recent years to reduce 
        that burden by preventing overclassification of information. We 
        need an ongoing, dynamic review to ensure the system is not 
        overloaded.

  <bullet> We need a system of follow-up and counseling to look into 
        security violations, look at the causes for them and propose 
        individual and systemic improvement to avoid them in the 
        future.

  <bullet> We need cutting edge research on secure electronic 
        information management (including communications, distribution, 
        storage and retirement) to provide better tools to meet the 
        unique needs of diplomacy and foreign policy management.

  <bullet> We need better training for all employees on available tools 
        and how to use them to perform their jobs without compromising 
        security.

    As you have pointed out, Mr. Chairman, leadership, management and 
training are all critical to security management and effective 
diplomacy.
    Resources are also critical. Logistical support for diplomacy is 
just as important as logistical support for the military, and the 
Foreign Affairs Account has been underfunded for many years. We need 
look no further than the issue of Embassy security. In spite of your 
personal efforts, the Administration still has not requested and the 
Congress has not appropriated the funds recommended by Admiral Crowe to 
bring our overseas posts up to proper security standards.
    Information security has similar needs. The research mentioned 
above probably compares to a major defense project in scope and 
expense. In addition, a serious improvement of security at the Harry S 
Truman State Department building will require major design and 
construction work to separate classified and unclassified areas, as 
well as significant new efforts to monitor security and escort 
visitors.
    Senator Grams, the American Foreign Service Association deeply 
appreciates the support that you have given the Department of State and 
the Foreign Service in improving security at overseas posts. We will do 
our best to help address the concerns that you are raising today, and 
hope that we can continue to count on your support in the future.

    Senator Grams. And again, I appreciate both of you coming 
and providing testimony and taking some questions.
    Dealing with the question of morale--and I know we have 
heard from a lot of people that work at State. Have you heard 
from your membership about low morale and low morale because 
people are getting promoted who, at the very least, are sloppy, 
if not security risks?
    And I think it must be frustrating for individuals who work 
hard, play by the rules, to see that those who do not still get 
advances ahead of them. Has this been a problem that you have 
heard from as well?
    Ms. Finley, maybe I will start with you and----
    Ms. Finley. Thank you. Mr. Gary Galloway who is the agency 
vice president and has day-to-day responsibility for the 
operations of the union at the State Department, I would like 
to ask him to come up.
    As president, I serve over all three agencies, but he kind 
of takes over on the day-to-day operations. So, if you do not 
mind, I would like to ask Mr. Galloway to come up.
    Senator Grams. Sure. Should we swear him in or--no? All 
right. We will take him.
    If you would like to come up now. So, just basically I was 
wondering if you would----
    Ms. Finley. We work very closely together, but he is there 
all day, every day.
    Senator Grams. OK.
    Again, as I mentioned, I know we have heard from a number 
of employees at State, so I guess, just to refresh you on the 
question, have you heard from individuals about this situation?
    Mr. Galloway. Well, Senator, we often hear from employees 
who are concerned about security issues from the--in the 
respect that they see things that happen and they see 
individuals promoted.
    However, for Civil Service personnel, it is not often in 
their best interest to make a lot of noise about things that 
they see. They report violations. I think they dutifully report 
violations, but I--it is our sense--and we do not have a lot of 
specific information for you right now--it is our sense that 
they become discouraged when they see their efforts to promote 
security go for naught.
    Senator Grams. And I will tell you, we have heard from a 
number of current and former workers at State who confide in 
us--and I know like you say, publicly it is hard maybe for some 
of these individuals to come forward and make a lot of noise.
    But privately it does add, I think, to some of the morale 
problems when they do witness some of the things that we are 
talking about and holding these hearings about, and that those 
who have many violations or infractions on their record and now 
are getting promotions over those who have worked very hard and 
had a very good record and are passed over.
    And that is--I guess I wanted to hear from you on those 
numbers. Mr. Adair, your response?
    Mr. Adair. Well, I think morale is always an issue at the 
State Department, and it is an issue in the Foreign Service.
    Overall, I think morale is pretty decent, although from 
time-to-time it seems--I am certain my morale sometimes goes 
down, but in order to maintain effective morale, I think you 
have got to do three things.
    You have got to establish high standards. They have to be 
high, particularly for an institution like the Foreign Service. 
You have to give people the training and the tools to help them 
meet those standards. And then you have to respect those 
standards. Absolutely no question about it. And if it appears 
that those standards are not being respected, that can 
certainly have an impact on morale.
    There is always a difficulty, though, when you talk about 
appearances. Sometimes in the cases that we have before us, it 
is difficult. The appearance is very bad. It is very difficult 
to actually evaluate what the real situation is there. I hope 
that answered your question.
    Senator Grams. OK. For both of you again, do you think that 
the fact that security has not been considered as a factor in 
promotion, that this in any way has sent a message that, 
despite the rhetoric, security is not that important?
    Ms. Finley.
    Ms. Finley. Let me say, with the Civil Service employees as 
Mr. Galloway said, we look at security as our Foreign Service 
colleagues do, as being very important.
    Where is it connecting with promotions? I do not know 
whether in our situation it is related to the promotion process 
in itself. In one of the letters you sent, you mentioned 
something about the Foreign Service and Civil Service Board and 
the rating process. Civil Service employees do not have a board 
that reviews the rating process, so it is de-centralized, and 
there is no way to get a handle on how that is operated or in 
what area is that record kept.
    Senator Grams. Would you recommend there should be?
    Ms. Finley. I think there should be. And we have a lot of 
other problems besides just that, as to not being able to 
collectively look at how the Department--in terms of records 
overall, it is so compartmentalized.
    It is very difficult to get a sense of any kind of ratio or 
averaging out of problems that are more across the board rather 
than just bureau-wide. So, I think it should be centralized in 
one place, all those records. And I think I heard you mention 
something about on security--diplomatic security. But we think 
in terms of ratings, too, it should be--that somewhere it is 
centralized.
    Senator Grams. Mr. Galloway, did you want to add anything 
to that?
    Mr. Galloway. No. I agree with Ms. Finley's statements.
    Senator Grams. Very good.
    Mr. Adair.
    Mr. Adair. First of all, I do not think it is really 
correct to say that security has not been considered in the 
promotion system. I think that security, the way individuals 
overseas or in Washington handle security, is a part of their 
job, and it reflects upon how they do their job.
    And I think that most supervisors, if they have an 
individual working for them that is having security problems 
and is not showing any improvement in those security problems, 
they are going to reflect that in one way or another in the 
efficiency report. That is the first thing.
    Second, there is a way of putting security violations into 
the files that go before the promotion boards, and that has 
already been discussed. Those letters are on the left-hand part 
of the file when you open it up.
    The efficiency report is on the right-hand side, and then 
the other letters of reprimand or whatever are there for the 
panels to see are on the left.
    That does not mean that enough has been done, and I think 
that you have raised some very good questions. I think that 
Ambassador Grossman agrees that there are ways, probably, to 
improve the way this is integrated into the promotion system.
    Senator Grams. During a meeting last Wednesday, a 
Department representative asserted, and I will quote, ``No 
national security information was compromised.'' In connection 
with certain violations, now this could be a true statement, 
but I think it is beside the point.
    The proper standard for security performance is not whether 
national security information is compromised; rather it should 
be whether the Department's security regulations were carefully 
observed so that the potential for compromise is not raised.
    Now, do you think that this ``no harm, no foul'' attitude 
is indicative of the views of most people at State, Mr. Adair?
    Mr. Adair. No, sir. But I was not in the room with you when 
that comment was made. I would be surprised if anyone would 
make the argument that because somebody did not actually pick 
up that information and use it against the United States that 
there was nothing wrong with what happened.
    Senator Grams. Right.
    Mr. Adair. But there is a difference between overlooking a 
classified document on your desk when you leave for a period in 
the afternoon in a secure area, because you may be very busy or 
trying to get something else done, and consciously taking 
documents that you should not take out of the embassy, or out 
of a secure area, in otherwords making a conscious decision to 
violate the regulation. There is a big difference there. OK?
    I do not think it is right to argue that just because it is 
an infraction, it does not count. But it is important to take 
into consideration the degree of the violation when you are 
making disciplinary decisions.
    Senator Grams. Well, I am thinking back that there was 
probably a lot of laptops that might have been left in a 
secured area and ``no harm, no foul,'' but there was one laptop 
that was in a secured area that is still missing, so that is 
what I am asking, about. But are you saying there should be 
degrees of violation or infractions?
    Mr. Adair. Well, what I am saying is when the Department 
has to make a decision as to what is going to be done about a 
violation or infraction, or if the promotion panels are going 
to decide, or if the committee is going to make a decision, 
they need to look at what kinds of violations or infractions 
have occurred, and look at the situation in which they 
happened, in order to make a judgment about the overall 
seriousness and to what degree that impacts on the ability of 
the individual to do the job that they are being considered for 
or to be promoted to another level.
    Senator Grams. I mean it might have been less likely the 
laptop would have been taken from this area, but the fact that 
it is, I mean it kind of opens again the door to, you know, 
that any kind of sloppiness in this regard can have some very 
bad consequences and----
    Mr. Adair. Yes.
    Senator Grams [continuing]. So it is hard to put a limit on 
that.
    Ms. Finley, would you have any comment on the ``no harm, no 
foul'' type of attitude?
    Ms. Finley. Mr. Galloway.
    Mr. Galloway. No. I pretty much echo what Mr. Adair had to 
say on the subject. We share the same views.
    Senator Grams. OK. Let me see. I have one more question. 
Several of the measures that we have talked about here today 
are, in our view, I think some very concrete steps which could 
be put into effect without any real significant delays.
    Things could be done in a short period of time to shore up 
some of the concerns that we have and that I am sure that you 
share and many others at State. For example, revision of 
employee evaluation reports, adjusting promotion board precepts 
to require evaluation of employees' security performance, it 
would appear not to require any lengthy deliberations or an 
action--in enacting these.
    Do you anticipate, however, if we--of some of the things 
you have heard in testimony, some of the proposals made by Mr. 
Grossman and echoed by Mr. Carpenter, do you anticipate any 
obstacles from your perspective to adoption of these measures 
or any other that have been mentioned today?
    Mr. Adair. I think that we can come to agreement quickly 
and get them implemented pretty quickly from what I have seen 
and from what I have heard from both Ambassador Grossman and 
Assistant Secretary Carpenter. Obviously, we have to see, we 
have to work on those details----
    Senator Grams. Right.
    Mr. Adair [continuing]. But I personally believe it can be 
done quite quickly, and that is what I tried to convey in both 
my written and my oral remarks.
    Senator Grams. And I appreciate it, and I know you said in 
your opening statement that, looking at all of those, there are 
things that you agreed with, and we appreciate that very much.
    Ms. Finley.
    Ms. Finley. Again, as I said in my initial statement, that 
we have no objections to those. We would work closely with the 
Department management in implementing those recommendations, 
and they are conditions of employment so we hope to be involved 
in that process at all stages.
    Senator Grams. And will these be cooperations between like 
Mr. Grossman himself, or where would it begin?
    Mr. Adair. Well, I assume we will be talking to Mr. 
Grossman's staff before we talk to Mr. Grossman.
    Ms. Finley. There is a process in terms of when unions are 
involved, and that is working with the Labor Relations Office 
and working directly with Mr. Grossman. So, whatever it takes 
to get it done, we will be willing to work with him.
    Senator Grams. All right. I appreciate that, and I 
appreciate the offers of cooperation to try to make these 
changes as quickly possible to accomplish I think the goals 
that we all share.
    So, I want to thank you very much again for taking time to 
be here for your testimony, your statement, your answers. And 
again I would like to say I would like to leave the record open 
for at least the next three business days in case any other 
members of the committee would want to submit a question to 
you, and then of course a prompt answer would be very much 
appreciated.
    Senator Grams. And one final note, I see that Mr. Adair 
postponed a family vacation to be here today, and we really 
appreciate that, and I just hope that it has not compromised 
the family event for this year to a great extent.
    Mr. Adair. It has not compromised the event, but it sure 
compromised me.
    Senator Grams. All right. Well, have a great vacation.
    Mr. Adair. OK. Thank you.
    Senator Grams. Thank you very much again for being here. I 
appreciate it. Thank you.
    This hearing is complete.
    [Whereupon, at 4:35 p.m., the hearing was adjourned.]

                                   - 

</pre></body></html>
